HHS/OIG - Audit, "Audit of Observation Service Billing by Presbyterian Hospital of Dallas - October 1, 1996 through September 30, 1999," (A-06-01-00087)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Observation Service Billing by Presbyterian Hospital of Dallas
- October 1, 1996 through September 30, 1999," (A-06-01-00087)
June 10, 2002
Complete
Text of Report is available in PDF format (585 kb).  Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective
of this audit was to determine whether outpatient observation services billed
by Presbyterian Hospital of Dallas (Hospital) met Medicare reimbursement requirements.
Our review covered service dates between October 1, 1996 and September 30, 1999.
The Hospital billed Medicare for observation services that did not meet Medicare
criteria, resulting in an estimated overpayment of $361,832.  We audited
a statistical sample of 100 claims that contained observation services and determined
that 35 percent of the observation services did not meet Medicare requirements.
These observation services were primarily unallowable because medical records
contained standing orders for observation, physicians orders were not documented
in the medical records, and  medical records documented that there were
no complications following an outpatient procedure.  The Hospital developed
an action plan in 1999 to address the problems with observation service billings.
We recommended that
the fiscal intermediary recover the overpayment amount of $361,832, and review
future observation claims to ensure the hospitals action plan continues to
reduce unallowable observation billing.  The fiscal intermediary concurred
with our recommendations.